   Office of Inspector General
       Audit Report


 FAA MUST STRENGTHEN ITS COST AND
PRICE ANALYSIS PROCESSES TO PREVENT
   OVERPAYING FOR NONCOMPETITIVE
             CONTRACTS
        Federal Aviation Administration


         Report Number: ZA-2011-089
          Date Issued: May 19, 2011
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Must Strengthen Its Cost and Price                                     Date:    May 19, 2011
           Analysis Processes To Prevent Overpaying for
           Noncompetitive Contracts
           Federal Aviation Administration
           Report Number ZA-2011-089
  From:    Lou E. Dixon                                                                    Reply to
                                                                                           Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           In fiscal year (FY) 2009, the Federal Aviation Administration (FAA) obligated
           over $541 million for more than 16,500 noncompetitive contract actions. 1 FAA’s
           Acquisition Management System (AMS) permits noncompetitive procurements
           when awarding new contracts if there is a well-documented rationale to support
           such a decision and if it is in the best interest of the Agency. To make this
           determination, AMS requires that FAA perform cost and price analyses to prevent
           overpaying for noncompetitive contract awards. 2 Given the significant number of
           FAA’s noncompetitive contract actions, it is critical that the Agency use sound
           cost and price analysis methods to ensure it obtains goods and services at a
           reasonable price. However, our prior audits have found instances where FAA
           awarded noncompetitive contracts and orders without first determining price
           reasonableness. 3

           In October 2009, the Office of Management and Budget (OMB) responded to
           Presidential direction and issued instructions to Federal agencies on the use and
           oversight of high-risk contracts. These instructions emphasized ensuring price
           1
               This includes awards for new contracts, modifications, and task orders.
           2
               Price analysis is always required for noncompetitive (sole source) awards and involves examining and analyzing a
               proposed price using comparisons to other prices for the same or similar products without evaluating individual cost
               elements, such as direct labor, overhead, and profit, comprising the total price. Cost analysis is needed when price
               analysis alone cannot determine price reasonableness and involves a detailed review of individual cost elements and
               profit or fees.
           3
               OIG Report Number FI-2006-072, “Audit of the Federal Aviation Administration’s RESULTS National Contracting
               Service,” September 21, 2006, and OIG Report Number FI-2007-030, “Audit of Emergency Transportation Services
               Contract: Lessons Learned From the 2005 Gulf Coast Hurricanes,” February 5, 2007. OIG reports are available on
               our website: www.oig.dot.gov.
                                                                                                                    2


reasonableness for noncompetitive awards and improving controls over the quality
of contract award data entered into agencies’ procurement systems. 4 In support of
the OMB directive, our audit objectives were to (1) determine the extent to which
FAA procurement offices used sufficient price analysis methods for
noncompetitive contract actions awarded within FAA and (2) assess FAA’s ability
to adequately account for its noncompetitive contract awards.

We reviewed a total of 25 randomly selected FAA contract awards out of a
universe of 281 noncompetitive contract awards, with a potential maximum value
of about $44.8 million. 5 We conducted this audit in accordance with generally
accepted government auditing standards. Exhibit A details our scope and
methodology.

RESULTS IN BRIEF
FAA did not perform effective cost and price analysis for 8 of the 25 contracts we
reviewed (totaling about $11.6 million). As a result, FAA was unable to
demonstrate that prices paid were reasonable and may have overpaid for two
contracts by about $670,000. Specifically, FAA program offices and contracting
officials either used inadequate methods to determine price reasonableness or did
not do any price analysis. We determined that FAA contracting officials took
shortcuts when planning acquisitions or lacked training on how to do price
analysis. For example, FAA Headquarters awarded a contract for $834,870 to
continue programmatic support for the Automatic Detection and Processing
Terminal program in September 2007, just before the end of the fiscal year. To
meet the year-end deadline, the contracting specialist merely relied on the rates
from the prior contract and did not determine whether the prior rates were
reviewed for reasonableness or whether there were changes for the new contract
requiring additional analysis. About $303,000 of the new contract award involved
rates for new labor categories that were never reviewed. 6 We also found instances
where contracting officials either used outdated pricing data or incomplete
government cost estimates. As a result of these deficiencies, FAA had little
assurance that contract prices were consistently fair and reasonable for the
noncompetitive awards reviewed.


4
    OMB, “Increasing Competition and Structuring Contracts for Best Results,” October 27, 2009. OMB, “Improving
    Acquisition Data Quality for Fiscal Years 2009 and 2010,” October 7, 2009.
5
    We used 2 random samples and initially examined a total of 33 contracts. Our first sample of 23 contracts, awarded
    during the period December 2006 through March 2008, mostly included contracts awarded before new AMS pricing
    methodology guidance on completing independent government cost estimates—frequently used for completing price
    analysis—became effective. The second sample included 10 contracts awarded during the period April 2008 through
    December 2008, after the new guidance was implemented. However, of the 33 contracts, 2 were competitively
    awarded, and 6 represented other transaction agreements, which are exempt from price analyses. Therefore, we did
    not include these 8 contracts in our analysis, which narrowed our review sample down to 25.
6
    The contracting specialist notified us that no review of current rates was performed.
                                                                                                                         3


In addition, FAA does not accurately account for its noncompetitive contract
awards because it does not use a contract writing system, as required by OMB.
These systems provide for immediate data verification to detect errors at the time
of contract award and allow for direct electronic submission to the Federal
Procurement Data System-Next Generation (FPDS-NG)—the Government’s
database for tracking contracts across Federal agencies. 7 FAA also lacks
compensating management controls, such as validating data entry completeness
and accuracy. In addition FAA uses its procurement system, the Purchase Request
Information System (PRISM), to record new contract awards. However, we found
that PRISM has a significant number of blank data fields where the extent of
contract competition should be identified. For example, there were no entries for
the extent of competition for 727 contracts with actions awarded in FY 2009, each
valued at $100,000 or more. 8 Further, 13 contracts we reviewed were incorrectly
recorded as “Not Competed” when they should have been recorded as either
“Competed Action” or “Not Available for Competition.”

FAA has actions underway to implement a contract writing system. It is
imperative that FAA complete this effort, so that FAA managers can rely on a
database that allows them to properly oversee noncompetitive procurements.
Further, without an effective contract writing system, it will be difficult to
accurately track tax dollars spent on noncompetitive contracts for congressional
and other Government stakeholders.

We discussed our audit findings with FAA in July 2010 and January 2011. As a
result, FAA is now implementing corrective actions to improve its cost and price
analysis process and to enhance the accuracy of its procurement data. Significant
actions include revising the Pricing Handbook to incorporate our findings and
other Federal agencies’ best practices and expanding FAA’s National Acquisition
Evaluation Program (NAEP) coverage of the proper data entry for FPDS. A
detailed summary of FAA’s planned and ongoing corrective actions is provided at
Exhibit C. We are recommending further actions to improve FAA’s performance
of price analysis to prevent overpaying for noncompetitive contract awards and
enhance the Agency’s ability to account for contract award data.

BACKGROUND
FAA’s AMS recommends that contracting officials obtain adequate information to
evaluate price reasonableness to prevent overpayments on noncompetitive
contracts. Common price analysis techniques include comparing proposed prices

7
    FPDS-NG is the Government’s database for agencies’ contracting data. Contract writing systems are software
    systems that allow agencies to report contract information electronically to OMB via the FPDS-NG. These systems
    include data input validation controls to detect blank data fields and entries requiring correction at time of contract
    award.
8
    The blank “extent of competition” entries for the 727 contracts represented about 11 percent of 6,888 entries.
                                                                                                                    4


to prior prices that were competitively awarded or to published market prices and
discount arrangements. Common cost analysis techniques involve evaluating the
separate cost elements (e.g., direct labor, materials, and general and administrative
costs) and profit or fee that constitute the contractor’s price. Exhibit B provides
further details on methods for completing price and cost analysis.

In October 2003, the General Services Administration (GSA) introduced FPDS-
NG as the backbone system for Government agencies to provide contract award
data to OMB. This allows the Government to understand where tax dollars are
spent for contracts across Federal agencies. FPDS-NG was designed to enhance
the quality and reliability of procurement data by allowing agencies to directly
upload the data from their contract writing systems. To improve the completeness
and accuracy of data in FPDS-NG, OMB directed agency and department heads to
ensure they maintained contract writing systems that were capable of
electronically transferring data directly to FPDS-NG no later than the end of FY
2005. 9 Information entered into the contract writing system is highly accurate,
since it represents the same data produced in the contract, including contract type,
amount, funding, and extent of competition.

In FY 2007, FAA began utilizing FPDS, as directed by OMB, to provide a single,
searchable website that includes specific details on each Federal award. 10
However, rather than using a contract writing system capable of verifying data
accuracy immediately and submitting data directly to FPDS-NG, FAA manually
inputs data into PRISM, its procurement system, and subsequently enters the data
into FPDS. 11

FAA’S PRICE ANALYSIS METHODS HINDERED ITS ABILITY TO
ENSURE IT AWARDED CONTRACTS AT REASONABLE PRICES
While FAA completed sufficient price analysis for 17 of the 25 contract award
actions we reviewed, 12 the remaining 8—totaling about $11.6 million—either had
incomplete or improperly completed price analyses to support price
reasonableness. This was primarily because FAA did not provide needed training
for its acquisition staff on how to conduct and document price analysis or plan
9
     OMB Memorandum: "Timely and Accurate Procurement Data," August 25, 2004.
10
     Government-wide award information on procurements, grants, and loans is reported on OMB’s
     www.USASpending.gov website.
11
     PRISM is a browser-based purchasing management system that tracks all phases of procurement from requisition,
     obligation of funds, expenditure, and payment. PRISM is an off-the-shelf software that performs contract
     management functions and integrates with Delphi, DOT’s financial management system, through an
     Oracle/Compusearch interface.
12
     Adequate price analysis methods FAA used included comparing proposed prices to those in competitive lists, such
     as GSA’s Federal Supply Schedules; verifying materials costs, labor, and indirect rates; or comparing to reliable
     independent government cost estimates (IGCE). The Federal Supply Schedules Program establishes a streamlined
     approach to procuring long-term Government-wide contracts for commercial supplies and services. The schedules
     assure competitive prices but allows for negotiation of discounts.
                                                                                          5


adequate timelines for price analysis—a problem also found by FAA’s internal
quality control reviews. We found that FAA personnel either used inadequate
methods to determine price reasonableness, lacked sufficient documentation to
support the price analysis technique used, or did not perform any price analysis.
As a result, FAA was unable to demonstrate that prices paid were reasonable and
may have overpaid for two contracts by $669,126 (see table 1).

Table 1. Summary of Inadequate Price Analysis Methods
 Methods of Cost or Price            Number of          Total Estimated            Amount
 Analysis                        Contract Award         Potential Value           Overpaid
                                        Actions             (in Dollars)

 Acceptance of prior prices
 without establishing their                  1                 $188,612
 reasonableness

 Use of outdated/escalated
 prices without requesting                   1                 $232,415
 additional data

 Significant costs and profits
                                             1               $1,495,216
 not analyzed

 Use of unreliable
 (incomplete or unsupported)                 1                 $314,500
 IGCEs

 Incomplete or inaccurate
 comparison with GSA                         1                 $113,270             $11,568
 Federal Supply Schedule

 Inadequate analysis of
                                             1               $7,632,366            $657,558
 indirect rates and profit

 None performed                              2               $1,576,585

 Totals                                      8              $11,552,964            $669,126
Source: OIG review of 25 contract files for randomly sampled noncompetitive contract awards.
*Amounts were rounded up.

Inadequate Workforce Training and Acquisition Planning Impeded
FAA Officials’ Ability To Perform Effective Price Analysis
Of the 12 acquisition personnel responsible for the 8 contracts that had inadequate
price analysis, only 2 had completed specialized training on performing cost and
price analysis. We found a number of mistakes made on contract awards that
demonstrate the need for additional price analysis training for FAA contract
personnel and better acquisition planning. For example, in the case of the two
overpayments shown in table 1:
                                                                                                                6


     • In March 2008, FAA awarded a contract for en route high and low altitude and
       area air traffic control charts, valued at approximately $7.6 million. However,
       FAA officials at the Mike Monroney Aeronautical Center in Oklahoma City
       mistakenly awarded the contract with an excessive profit rate of 30 percent;
       therefore, FAA likely overpaid for the contract by $657,558. This was due to
       an analyst’s lack of training needed to review an indirect rate submission
       included in the contractor’s cost proposal. Specifically, the contractor bid all of
       its indirect costs as part of a single overhead rate, including general and
       administrative (G&A) costs, which include executive salaries and
       administrative costs, such as accounting and legal. However, the FAA analyst
       did not identify that the various G&A costs were combined with overhead
       costs. As a result, the analyst mistakenly concluded that the contractor forgot to
       include G&A costs in its proposed price. Therefore, even though the analyst
       originally determined that a reasonable profit rate could range from 12.41 to
       18.8 percent, he ultimately recommended that FAA award the contract with a
       profit rate of 30 percent to compensate the contractor for the G&A costs he
       thought had been left out of the proposed price. The analyst later stated he had
       no experience reviewing indirect costs and that in his prior job he had relied on
       other price analysts to do such analysis.

     • In January 2008, FAA awarded a contract for an environmental assessment of
       the increased use of a crosswinds runway for $113,000. FAA did not compare
       proposed rates to a competitive Government-wide schedule to verify whether
       the proposed rates were reasonable as claimed. Instead, FAA officials relied on
       an undocumented Independent Government Cost Estimate (IGCE) that was
       unsigned and not retained in the contract file. An FAA procurement specialist
       initially stated she completed the IGCE by comparing labor rates—similar to
       those eventually proposed—to competitive rates for the contractor that were
       published in the GSA Federal Supply Schedule. Ordinarily, this is an
       acceptable price analysis tool, assuming other sources of comparison were
       unavailable. 13 However, our review found that the rates in the Federal Supply
       Schedule were 10 percent to 13 percent lower for each labor category. Using
       these rates, we calculated that FAA may have overpaid by about $12,000.
       Additionally, FAA could have saved more if it had attempted to obtain
       discounts from the published blanket purchase agreement rates. 14 The
       procurement specialist later admitted she never compared the labor rates to
       those in the GSA Federal Supply Schedule.


13
     The Contract Pricing Reference Guides recommend using information gathered to make multiple comparisons in
     determining price reasonableness.
14
     On December 22, 2009, the Administrator, Office of Federal Procurement Policy, OMB issued guidance that
     strongly urged agencies to aggressively seek discounts under blanket purchase agreements, such as the Federal
     Supply Schedules, which are specifically designed for agencies to negotiate better deals.
                                                                                                                     7


In another example from June 2007, FAA Headquarters awarded a bridge contract
for information technology support services for approximately $742,000. The
contracting officer used rates from two existing bridge contracts without verifying
whether they were reviewed for reasonableness. The contracting officer stated that
he did not determine price reasonableness for this contract because he had just
been assigned responsibility for administering the contract and was instructed to
award the new contract within 1 week. Yet, FAA guidance states that acquisition
planning is required for every contract award action of $100,000 or more.
Additionally, FAA’s Pricing Handbook states that planning prior to beginning
price analysis helps provide accurate price recommendations. Without reviewing
proposed rates or verifying whether prior rates are reasonable, FAA is left with
little assurance that contracts are awarded at the best value to the Agency.
Moreover, our review of the prior contract for these services found that a review
of its rates was never performed to determine reasonableness and that the rates
were overpriced by about 16 percent compared to average rates for a similar
contract administered by FAA. 15

The Contract Pricing Reference Guides, 16 used as a best resource for conducting
price analysis throughout the Government, state that contract personnel should
ensure that any prior prices or rates being relied upon were found to be fair and
reasonable. The guide highlights that it is not uncommon to review the purchase
history for an item or service only to find that there is no basis other than the last
price paid to accept proposed amounts as reasonable. Therefore, contracting
officials should not rely on prior contract rates when awarding successive bridge
contracts without reviewing or ensuring that prices were evaluated for
reasonableness. This demonstrates the need for improved acquisition planning so
that acquisition officials have sufficient time to properly consider comparability
factors, including passages of time and changes in markets and technology. This
also shows that some FAA acquisition officials may lack knowledge on how to
compare prices or may be unaware that prices can change dramatically over time.

We found other examples of ineffective price analysis methods among the awards
for the eight contracts, including the following:

     • Procurement of 16 Moving Target Simulators. FAA officials at the Mike
       Monroney Aeronautical Center in Oklahoma did not complete a cost analysis
       before awarding this contract in June 2007. Specifically, FAA did not review
       and document an analysis of the direct costs—such as labor rates and costs,
       material costs, and fees—which represented over $729,000 (49 percent) of the
       $1.5 million awarded. Instead, FAA limited its review to confirming the
15
     The Broad Information Technology and Telecommunications Support Services II multiple award contract.
16
     The five-volume Contract Pricing Reference Guides are (1) Price Analysis; (2) Quantitative Techniques for Contract
     Pricing; (3) Cost Analysis; (4) Advanced Issues in Contract Pricing; and (5) Federal Contract Negotiation
     Techniques.
                                                                                                                        8


       reasonableness of proposed overhead and G&A rates, 17 with the Defense
       Contract Audit Agency (DCAA). 18

     • Streamlining Air Traffic Oversight System Data Collection Tools. FAA
       Headquarters awarded a follow-on contract for management consulting
       services in September 2008 for $189,000. However, the program manager used
       outdated contract rates from a prior contract awarded in 1999 (adjusted for
       escalation) without determining whether those rates had undergone adequate
       price analysis. While FAA’s AMS permits using rates from prior contract
       awards when the comparison is valid—that is, for similar items and
       quantities—AMS states that the contracting officer should consider whether
       pricing data are recent when deciding if more current data should be requested.
       Additionally, best practices in the Contract Pricing Reference Guides 19 used by
       other Federal agencies caution that an effort to equate two prices separated by
       5 years, through a simple inflation adjustment, may not be successful because
       too many characteristics of the market are likely to have changed. In this case,
       since the prior contract price was awarded 9 years ago, the program manager
       should have requested and reviewed recent sales or pricing data.

FAA Found That Acquisition Workforce Training Did Not Sufficiently
Emphasize Cost and Price Analysis
Price analysis deficiencies were reported in FAA Headquarters’ NAEP reviews, as
well as FAA’s Assistant Administrator’s Procurement Evaluation Program
Reviews, which are internal quality control reviews of procurement and contract
administration practices. 20 Similar to our aforementioned findings, FAA’s NAEP
reviews reported that price analysis was inadequately completed due to
insufficient training. Additionally, a strategic plan 21 for the Department of
Transportation’s acquisition workforce and a Department-wide analysis of core


17
     Overhead rates ordinarily include costs incurred to support direct labor or direct materials and are allocated to
     multiple contracts over a common base, such as direct labor hours or costs. G&A rates include management,
     financial, and other costs that are allocated to all contracts for the general management within a business unit,
     typically on a base of total costs, excluding G&A.
18
     The DCAA regularly audits financial submissions and accounting systems of government contractors. The FAR
     provides that contracting officers may request audit services directly from the responsible audit agency cited in the
     Directory of Federal Contract Audit Offices, which are primarily comprised of DCAA resident and field offices.
     Using DCAA audits to verify proposed rates is considered a technique for completing cost analysis (see exhibit B for
     more techniques).
19
     The Contract Pricing Reference Guides (developed by the Air Force Institute of Technology and Federal Acquisition
     Institute), are used as a best resource for conducting price analysis throughout the Government.
20
     “National Acquisition Evaluation Program (NAEP) Procurement Evaluation Review," FY 2009 Report for Mike
     Monroney Aeronautical Center (MMAC); “FY 2008 Procurement Review Summary Report and Action Response,”
     NAEP, FAA, dated March 31, 2009; “Procurement Evaluation Program Reviews of the Western-Pacific (AWP),
     Central (ACE), and Alaska (AAL) Regional Offices,” dated August 15, 2007; and “Procurement Evaluation Program
     Reviews of the New England (ANE), Great Lakes (AGL), and Northwest Mountain (ANM) Regional Offices,” dated
     December 19, 2006.
21
     “Strategic Acquisition Workforce Succession Plan,” Department of Transportation, February 2009.
                                                                                                           9


competencies 22 concluded that the ability to review contractors’ proposals was
among those core competencies in most need of improvement.

In October 2008, the NAEP augmented its annual plan to include expanded review
elements for price analysis and data entry into the Federal Procurement Data
System (FPDS). Beginning in October 2009, the NAEP assumed responsibility of
FPDS oversight for FAA including reporting agency compliance to OMB. During
FY 2011 the NAEP plans to conduct detailed reviews of contract awards at FAA
Headquarters and three regions.

We met with FAA acquisition executives and managers on July 7, 2009, and
August 20, 2009, and informed them of the need to implement training on price
analysis. As a result of these meetings, FAA contracted to obtain a price analysis
course and has begun providing the training to all contracting officers and other
acquisition workforce staff managers involved with evaluating cost proposals and
preparing IGCEs. Also, at the FAA National Procurement Training Conference in
November 2009, FAA acquisition specialists provided training to senior
contracting and acquisition specialists on price analysis areas such as conducting
proposal analysis, performing procurement planning, and using commercial
escalation forecasts.

FAA DID NOT IDENTIFY ITS NONCOMPETITIVE CONTRACTS
DUE TO INCOMPLETE AND INACCURATE DATA SYSTEMS
FAA is limited in its ability to identify high-risk and noncompetitive contracts
because it does not have an effective contract writing system as required by OMB.
On July 29, 2009, OMB required Federal agencies to identify high-risk contracts,
including noncompetitive ones, and reduce the amount obligated for new awards
for these types of contracts by 10 percent in 2010. OMB also outlined steps
agencies should take to improve data quality, focusing on agencies’ internal data
entry and control procedures. However, it is difficult for FAA to comply with
these guidelines because it still does not use a contract writing system that can
interface directly with the Government’s contract database, FPDS-NG, which
would flag data entry errors at time of contract award. Rather, FAA uses PRISM
as a feeder system to enter data into FPDS but does not require contracting
officials to verify that critical data fields are completed when they enter data into
PRISM at time of contract award. FAA also cannot identify how many
noncompetitive contracts are listed in PRISM because it lacks internal controls for
validating the accuracy of contract award data entered into the system. As a result,
FAA managers cannot effectively use PRISM data to oversee procurements and


22
     “Acquisition Workforce Gap Analysis Improvement Plan,” Department of Transportation, February 2009.
                                                                                                                 10


accurately assess the impact of FAA’s competitive practices to ensure contracts
are properly administered.

Data Limitations Obstructed FAA’s Knowledge of the Use of
Competition
Our review of noncompetitive contract award actions recorded in PRISM found
that contracting officials are not consistently recording whether contract actions
were competitively or noncompetitively awarded. For example, in March 2010 we
conducted a review to determine whether contracts awarded during the 12 months
ending September 30, 2009, were recorded as “Competitive,” “Noncompetitive,”
or “Not Subject to Competition” in the “Extent Competed” field in PRISM. This
field requires an entry before the contracting officers can record contract award
information in FPDS-NG. FAA notified its contracting officers requesting that
they complete the missing information throughout FY 2009 and subsequent
months. However, we identified 1,940 blank entries in the “Extent Competed”
field for contract actions awarded for FY 2009 with estimated potential values of
more than $2 billion. 23

FAA officials confirmed that similar problems exist throughout the Agency. For
example, for FY 2009, FAA’s former Chief Acquisition Officer (CAO) and Vice
President, Acquisition and Business Services, certified that 12 percent of all
FAA’s reportable contract actions were not entered into FPDS-NG as fully and
accurately as possible, and that only 1 percent of FY 2009 procurements were
reported directly to FPDS-NG through an online web portal. FAA officials stated
that FAA plans to implement the FPDS-NG software, which requires complete
fields in order to record an initial transaction. FAA’s former CAO stated that
implementing a contract writing system is one of FAA’s highest priorities for
improving its procurement practices.

An accurate database of noncompetitive awards would provide FAA with a tool to
determine whether such awards were justified and not overpriced; perform market
research to develop alternative sources; oversee performance; and conduct
oversight to identify opportunities to increase the use of commercial practices,
increasing the likelihood of competition. FAA states it is developing methods to
improve its controls for data initially entered into PRISM and FPDS when
contracts are awarded.




23
     The PRISM User Guide requires the “Extent Competed” field to be completed within PRISM to identify the extent
     of FAA's competitive and noncompetitive contract award actions, such as full and open competition, not available
     for competition, and not competed.
                                                                                                               11


Internal Controls Are Insufficient To Validate the Number of
Noncompetitive Awards Reported in PRISM
FAA lacks internal controls to validate the accuracy of information entered into
PRISM when a contract is awarded. While FAA performs semiannual checks of
PRISM to determine whether required fields are populated so new award data can
be transferred to FPDS-NG, contracting officials are not correcting data errors
identified in these checks in a timely manner. FAA contracting officials also
inaccurately reported noncompetitive awards and procurements that are exempt
from competitive requirements in PRISM’s “Extent Competed” field. FAA’s
former Acquisition Executive reported to OMB that FAA contracting personnel
place a higher priority on awarding contracts and lower priority on entering data
accurately, although the accuracy of the data is critical for overseeing
noncompetitive contract awards. 24 For example, FAA contracting officials
inaccurately recorded 13 of 33 contract award actions (39 percent) we reviewed as
“Not Competed,” although they should have been recorded as “Competed Action”
or “Not Available for Competition.” Specifically:

     • Two contracts were awarded using full and open competition and should have
       been recorded as “Competed Action.”

     • Five contract awards were set aside for small economically disadvantaged
       businesses. According to FAA’s PRISM User Guide, which exempts these
       types of awards from competition requirements, they should have been
       recorded as “Not Available for Competition.”

     • Six contract awards were for “other transactions”—which are agreements that
       are not subject to rules of competition for FAA—and should have been
       recorded as “Not Available for Competition.” FAA is implementing
       regulations to require that other transactions be separately accounted for in
       FPDS. 25 Although FAA uses PRISM to record data into FPDS, FAA’s PRISM
       User Guide currently lacks information on how to code other transactions. 26

Since FAA inaccurately reports its use of competition, it is limited in its ability to
oversee proper administration of contracts. On February 22, 2010, FAA’s CAO
reported to OMB that FAA is challenged in holding contracting personnel
accountable for placing a priority on reporting procurements in a timely and
accurate manner—since awarding contracts to support mission needs many times
takes precedence over data reporting. FAA plans to distribute data discrepancy
24
   According to the FPDS Data Quality Report that FAA submits to OMB.
25
   According to FAA Legal Counsel, other transaction agreements are not subject to competitive requirements, do not
   require single source justification, and are not subject to AMS price analysis requirements.
26
   The Duncan Hunter National Defense Authorization Act, Public Law 110-417, Section 874 requires revisions to
   FPDS to facilitate the collection of timely and reliable data on transactions other than contracts, grants, and
   cooperative agreements.
                                                                               12


reports more frequently; however, this will not ensure that data are valid when
entered into the system at the time of contract award.

CONCLUSION
Maximizing the use of Federal funds is more important than ever as the
Government is now seeking new ways to cut costs. Following proper price
analysis methods provides FAA with the opportunity to better account for the
hundreds of millions of dollars spent on noncompetitive contracts, avoid
overpaying for goods and services, and ensure decision makers have visibility into
the Agency’s use of those contracts. While FAA has begun improving its
processes, additional management controls are needed to meet OMB and
Presidential direction regarding price reasonableness and reliable contract award
data.

RECOMMENDATIONS
We recommend that FAA’s Vice President of Business and Acquisition Services:

1. Implement oversight procedures to ensure that price analysis is documented
   and reviewed for completeness and adequacy before negotiating
   noncompetitive contract award actions.

2. Develop guidance on when current pricing information should be obtained
   and how the current data should be used, such as obtaining and reviewing
   rates available in GSA’s Federal Supply Schedules, before negotiating prices.

3. Complete price analysis training for the acquisition workforce members with
   an identified need for such training. Ensure that program officials and
   engineers responsible for developing IGCEs complete price analysis training.

4. Amend FAA’s PRISM User Guide to separately account for other
   transactions agreements or address how these agreements should be recorded
   in the “Extent Competed” field.

5. Implement internal control procedures to verify that entries in the “Extent
   Competed” field in PRISM are entered completely and accurately at the time
   contracts are awarded.

6. Implement a contract writing system or FPDS-NG software to validate that
   required fields are completed and valid codes are used when entering data for
   new awards.
                                                                                 13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA for comment on March 31, 2011. We
received FAA’s response on April 27, 2011, which can be found in its entirety in
the appendix of this report. FAA concurred with all of our recommendations and,
in April 2011, had already implemented corrective action for recommendation 4.
We consider this recommendation closed. FAA has also provided sufficient
planned actions, with target dates for recommendations 1, 2, 3, and 5. We consider
these actions resolved but open pending completion of the planned actions. For
recommendation 6, however, FAA indicates that it intends to implement an FPDS-
NG software module to close the recommendation but only when sufficient
funding is identified for this effort due to budget uncertainty. Consequently, FAA
did not estimate a completion date for those actions. In our opinion, since FAA
states that it intends to implement the recommendation it should be able to
estimate a future target date for taking the corrective action or provide an
alternative corrective action and associated implementation dates. Accordingly,
until we receive that information, we consider this recommendation open and
unresolved.

ACTIONS REQUIRED
FAA provided acceptable actions and timeframes for recommendations 1, 2, 3,
and 5, and we consider them resolved but open until planned actions are
completed. For recommendation 4, we verified that FAA implemented its
corrective action in April 2011, and we consider the recommendation closed. We
request that within 30 days of this report, FAA provide in writing a target
completion date for recommendation 6, or an alternative corrective action and
estimated completion date. We consider this recommendation open and unresolved
until that time. We appreciate the courtesies and cooperation of FAA
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-1427 or Terry Letko, Program Director, at (202)
366-1478.

                                         #

cc: Vice President, Office of Acquisition and
     Business Services;
    Anthony Williams, AAE-100
    Carol Johnson, AAE-100
    Martin Gertel, M-100
                                                                                14



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted this audit between February 2008 and March 2011. The objectives
of our audit were to determine whether FAA: (1) sufficiently justified and properly
reviewed and approved the use of noncompetitive contract awards and (2)
adequately performed and properly documented price analysis applicable to the
contract.

To address our audit objectives, we used data from FAA’s PRISM to identify the
universe of noncompetitive contracts with award values of $100,000 or more that
were awarded for the 18-month period ending April 15, 2008, excluding grants
and cooperative agreements. We identified a universe of 176 noncompetitive
contracts for this period with estimated potential values of $189.5 million. From
this universe, we selected a random sample of 23 noncompetitive contracts for
review. Of the 23 contracts, 17 were awarded before new AMS pricing
methodology guidance on completing price analysis and IGCEs became effective
on October 2007, and 6 noncompetitive actions were awarded after the new
guidance. To further evaluate the effectiveness of the new guidance, we selected a
second random sample of 10 contracts, with a total estimated potential value of
$24.8 million, awarded after the new guidance became effective. This second
sample was selected from a universe of 105 noncompetitive contracts, with an
estimated potential value of $220.4 million, awarded for the 9-month period
ending December 24, 2008. Ultimately, we reviewed 25 of the 33 total contracts
(valued at $44.8 million) selected for review because 2 sampled contracts were
competitively awarded, and 6 sampled contracts represented other transactions,
which are exempt from price analyses.

In the Department of Transportation’s FY 1996 Appropriations Act, Congress
provided FAA with broad authority to develop its own acquisition process without
having to comply with Federal acquisition laws or regulations, including those
addressing the award of noncompetitive contract actions. The intent was to allow
FAA to streamline its acquisition processes so that it could acquire goods,
services, and systems in a more timely and cost-effective manner. To implement
the reforms, FAA established its Acquisition Management System (AMS), a set of
policies and guidance designed to address the unique needs of the Agency and to


Exhibit A. Scope and Methodology
                                                                                     15


streamline all three acquisition life-cycle phases (see figure 1). AMS allows
procurement flexibility, but to ensure this flexibility is properly applied, it requires
sound judgment on the part of FAA procurement officials. Accordingly, FAA
officials should consider best practices followed by other Federal agencies for
awarding noncompetitive contract actions, and appropriate oversight by FAA
executives is critical.

Figure 1. Acquisition Lifecycle

                                                         Manage &
          Plan
                                  Procure                Administer
      (Pre-Award)
                                                        (Post-Award)

Source: Information Technology Resources Board

We reviewed documents in contracting files for randomly selected noncompetitive
awards to determine whether price analysis was adequately completed. This
included reviewing contract award decision documents, legal reviews, contractor
price proposals and support, price analysis reports, IGCEs, and other documents
that were relevant to the award. We also interviewed contracting staff, program
managers, cost analysts, and other FAA officials to understand how price analysis
was conducted. In some instances, we also recomputed price analysis. We used
AMS, the FAA Pricing Handbook, Federal Acquisition Regulation (FAR), and
guidance from other Federal agencies as a basis for our review. We briefed FAA
senior acquisition officials on relevant findings throughout our review.

We also relied, in part, on the computer-processed data from FAA’s PRISM
database. During our audit, we assessed the reliability of the data. For data we
found to be inadequate, we performed additional procedures to verify the
information received. For example, we reviewed contract award documents to
determine whether the action was awarded on a noncompetitive basis and verify
the amount of the award. However, the lack of complete and accurate PRISM data
resulted in a scope limitation that impacted the extent of our work. For example, 8
of 33 noncompetitive awards in our random sample were inaccurately recorded as
“Noncompetitive,” when they should have been recorded as “Competitive” or
“Exempt from Competition.” As a result of such errors, we could not complete
our first audit objective to determine whether use of noncompetitive awards was
justified and sufficiently approved. Specifically, due to the impracticality of
obtaining a valid universe of noncompetitive contract actions, we were unable to
gain assurance that required justifications for the use of noncompetitive contracts
were sufficient.



Exhibit A. Scope and Methodology
                                                                              16



EXHIBIT B. TECHNIQUES FOR PERFORMNG PRICE AND COST
ANALYSIS
Price Analysis. AMS procurement guidance provides several techniques that
may be used in performing price analysis for noncompetitive awards:

   1. Comparison of prior proposed prices and contract prices with current
      proposed prices for the same or similar end items and services in
      comparable quantities. (The FAR also requires that the reasonableness
      of the prior prices be established to use this method.)
   2. Application of rough yardsticks (such as dollars per pound) to highlight
      significant inconsistencies that warrant additional pricing inquiry.
   3. Comparison with competitive published catalogs or lists, published
      market prices or commodities, similar indexes, and discount or rebate
      arrangements.
   4. Comparison of proposed prices with independent cost estimates.
   5. Ascertaining that the price is set by law or regulation.

Although not included in AMS guidance, the FAR also includes the following
methods for performing price analysis:

   6. Comparison of proposed prices with prices obtained through market
      research for the same or similar items.
   7. Analysis of pricing information provided by the offeror (such as sales
      history, vendor quotations, actual cost and rate information, and
      budgetary support).

Cost Analysis. AMS guidance indicates that cost analysis involves examining
data submitted by the contractor, evaluating the judgmental factors applied in
projecting estimated costs, and comparing with previous costs and forecasts of
future costs based on historical experience. It includes the following
techniques and procedures:

   1. Verification of cost or pricing data (rates, etc.) and evaluation of cost
      elements.
   2. Evaluating the effect of the offeror’s current practices on future costs.
   3. Comparison of costs proposed by the offeror with historical and actual
      costs and previous estimates for the same or similar items.



Exhibit B. Techniques for Performing Price and Cost Analysis
                                                                             17


   4. Analysis of the contractor’s evaluation            in    determining   the
      reasonableness of the subcontract costs.
   5. Verification of the offeror’s proposed costs to ensure that it reflects
      cost realism and reasonableness.
   6. Determination of whether any cost or pricing data is necessary to make
      the contractor’s proposal accurate, complete, and current has been
      submitted or identified in writing.

Obtaining field pricing assistance from DCAA or the Defense Contract
Management Command is a common method of completing cost analysis. The
contracting officer may request field pricing support when deemed necessary;
methods include rate verifications, third-party audits, estimating system
audits, and proposal analysis. Contracting officers are encouraged to use good
business sense in deciding when to obtain pre-award audits. In comparison,
FAR provides that the contracting officer should request field pricing
assistance when the information available at the buying activity is inadequate
to determine a fair and reasonable price.




Exhibit B. Techniques for Performing Price and Cost Analysis
                                                                                  18



EXHIBIT C. SIGNIFICANT CORRECTIVE ACTIONS FOR
IMPROVING COST AND PRICE ANALYSIS AND ACCURACY OF
PROCUREMENT DATA

• October 2008: FAA’s NAEP expanded review elements for price analysis and
  proper entry of data into the FPDS. Each NAEP visit includes training on
  proper price analysis and award justifications, and FAA standards on the
  proper entry of FPDS data.

• October 2009: NAEP assumed responsibility of FPDS oversight for FAA, to
  include reporting agency compliance to OMB.

• FY 2009: To address NAEP and OIG findings, the Assistant Administrator for
  Regions and Center Operations provided tailored onsite training to her
  acquisition offices. This included the adequate use of pricing data and the
  proper development of an award justification.

• FY 2010: The National Acquisition Evaluation Group provided three cost and
  price analysis training classes to acquisition managers and contract specialists
  (two at FAA Headquarters and one at the William J. Hughes Technical
  Center).

• FY 2010/FY 2011: FAA is currently revising the Pricing Handbook to
  incorporate OIG findings and best practices from corporate and Federal
  sectors.

• May 24, 2010: To strengthen FAA’s infrastructure and capabilities in cost and
  price analysis, the Director of Acquisition Policy, Workforce Development
  developed a plan to establish a Cost/Price Group and strengthen the training
  and policy for cost and price analysis within FAA.

• December 30, 2010: To strengthen and standardize FAA’s capabilities in cost
  and price analysis, the Office of Acquisition and Business Services established
  the DCAA Audit and Price Analysis Support Team. This team will manage
  FAA’s DCAA audit program, continually assess FAA’s policy on cost and
  price analysis, provide assistance to contract specialists, and provide subject
  matter expertise in the development and delivery of cost and price training.




Exhibit C. Significant Corrective Actions for Improving Cost/Price Analysis and
Accuracy of Procurement Data
                                                                  19



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                           Title

Terrence Letko                                 Program Director

Gary Fishbein                                  Project Manager

Leslie Mitchell                                Senior Auditor

Jill Cottonaro                                 Senior Analyst

David Lahey                                    Auditor

Meghann Noon                                   Auditor

Heather Voda                                   Analyst

Angela Hailes                                  Analyst

Petra Swartzlander                             Statistician

Andrea Nossaman                                Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                               20


      APPENDIX. AGENCY COMMENTS


                      Federal Aviation
                      Administration

Memorandum
Date:

To:              Lou E. Dixon, Principal Assistant General for Auditing and Evaluation
From:            Clay Foushee, Director, Audit and Evaluations, AAE-1

Subject:         OIG Draft Report: FAA Must Strengthen Its Cost and Price Analysis
                 Processes to Prevent Overpaying For Noncompetitive Contracts



The Federal Aviation Administration (FAA) continues its commitment to conduct
effective cost and price analysis for its noncompetitive awards. Through policy and
process improvement and the delivery of effective training to acquisition professionals,
FAA will improve its cost and pricing capabilities to ensure awards continue to be fair
and reasonable.

In advance of this report, FAA has taken the following actions to reinforce its capabilities
in cost and price analysis, oversight and the proper recordation of contract information:

      •   October 2008: FAA’s National Acquisition Evaluation Program (NAEP)
          augmented its annual plan to include expanded review elements for price and cost
          analysis and proper entry of data into the Federal Procurement Data System
          (FPDS).
      •   October 2009: NAEP assumed responsibility of FPDS oversight for FAA, to
          include reporting agency compliance to the Office of Management and Budget.
      •   Fiscal Year (FY) 2009: FAA Headquarters and the Assistant Administrator for
          Regions and Center Operations provided focused and tailored onsite training to
          contract offices addressing core requirements of cost and price analysis.
      •   January 2011: FAA established the Defense Contract Audit Agency (DCAA)
          Audit and Price Analysis Support Team to manage FAA’s DCAA audit program,
          continually assess FAA’s policy on cost/price analysis, provide assistance to
          contract specialists and provide subject matter expertise in the development and
          delivery of cost/price training.



      Appendix. Agency Comments
                                                                                             21

The following is provided in response to the Office of Inspector General’s
recommendations:

OIG Recommendation 1: Implement oversight procedures to ensure that cost and price
analysis is documented and reviewed for completeness and adequacy before negotiating
noncompetitive contract award actions.

FAA Response: Concur. FAA will continue to update the Acquisition Management
System (AMS) and FAA Pricing Handbook to establish effective guidance for cost and
pricing elements and techniques, and provide refresher training to acquisition
management addressing cost and pricing standards and roles and responsibilities. AMS
and the FAA Pricing Handbook will be revised as needed by September 30, 2011, while
refresher training has already been developed and routinely delivered.

The NAEP will continue its reviews of acquisition offices to ensure effective cost and
price is conducted and adequate management oversight is being applied. The FY 2011
NAEP reviews have already been initiated, and will continue through the end of the fiscal
year.

OIG Recommendation 2: Develop guidance on when current pricing information should
be obtained and how the current data should be used, such as obtaining and reviewing
rates available in GSA’s Federal Supply Schedules, before negotiating prices.

FAA Response: Concur. The DCAA Audit and Price Analysis Support Team will
review AMS and reinforce language supporting when current pricing information should
be obtained and how it can be effectively used, to include the use of rates available from
GSA Federal Supply Schedules. AMS and associated guidance will be revised by
September 30, 2011.

OIG Recommendation 3: Complete price analysis training for the acquisition workforce
members with an identified need for such training. Ensure that program officials and
engineers responsible for completing Government cost estimates complete price analysis
training.

FAA Response: Concur. FAA will continue to deliver price analysis training to
acquisition managers and Contracting Officers. Additionally, FAA’s Acquisition Career
Management group will review curriculum content and certification requirements and
identify opportunities to strengthen training and guidance provided to program managers
and Contracting Officer’s Technical Representatives responsible for completing
Independent Government Cost Estimates. Training and certification requirements will be
reviewed and revised as needed by
 September 30, 2011.

OIG Recommendation 4: Amend FAA’s PRISM User Guide to separately account for
other transactions agreements or address how these agreements should be recorded in the
“Extent Competed” field.

   Appendix. Agency Comments
                                                                                           22



FAA Response: Concur. The instructions for “extent competed” field in the FPDS user
guide have been interpreted differently by contracting staff, sometimes resulting in
inconsistent coding of transactions. FAA updated the FDPS user guide in April 2011 to
provide more explicit instructions about when and how to use the options under the
“extent competed” field for each award type, to include other transaction agreements.

OIG Recommendation 5: Implement internal control procedures to verify that entries in
the “Extent Competed” field in PRISM are entered completely and accurately at the time
contracts are awarded.

FAA Response: Concur. Edit checks are present in the PRISM FPDS to FPDS-NG data
transfer; however, the checks do not analyze each field. To ensure the “extent competed”
field is properly addressed; FAA will establish an ongoing review process by May 31,
2011 to improve consistency and overall accuracy of FPDS data when entered at award.

OIG Recommendation 6: Implement a contract writing system or Federal Procurement
Data System- Next Generation software to validate that required fields are completed and
valid codes are used when entering data for new awards.

FAA Response: Concur. FAA’s goal continues to be the implementation of FPDS-NG
in PRISM; however, recent budget constraints have prevented the implementation of this
module. FPDS-NG will be implemented when sufficient funding is identified for the
effort, but due to budget uncertainty no completion dates can be estimated at this time.




   Appendix. Agency Comments
